TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Increasing Federal and State Cooperation
                     and Promoting Electronic Filing Would
                   Improve Administration of Taxes Used to
                        Maintain the Nation’s Highways



                                          March 24, 2008

                              Reference Number: 2008-40-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 24, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Increasing Federal and State Cooperation and
                              Promoting Electronic Filing Would Improve Administration of Taxes
                              Used to Maintain the Nation’s Highways (Audit #200740016)

 This report presents the results of our review to assess the efficiency and effectiveness of the
 Internal Revenue Service (IRS) processing of the Heavy Highway Vehicle Use Tax Return
 (Form 2290).1 This audit was conducted as part of the Treasury Inspector General for Tax
 Administration Office of Audit Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 The Heavy Vehicle Use Tax is a prepaid tax the IRS collects. Combined with other Federal
 excise taxes, it is used to provide more than $1 billion annually in Federal highway transit funds
 to the States. Expanding the Alternate Proof of Payment Program could reduce taxpayer burden
 by allowing taxpayers one-stop service when paying the Heavy Vehicle Use Tax and registering
 their vehicles. The Alternate Proof of Payment Program is based on an agreement between the
 IRS and State Departments of Motor Vehicles that allows taxpayers to simultaneously file, pay
 the Heavy Vehicle Use Tax, and register their vehicles. In addition, expanding electronic filing
 (e-filing) of Form 2290 would reduce costs for both taxpayers and the IRS.




 1
   The Heavy Highway Vehicle Use Tax (also referred to as the Heavy Vehicle Use Tax) is a Federal highway use
 tax paid annually on vehicles with a taxable gross weight of 55,000 or more pounds, designed to carry a load over
 public highways, and expected to be used more than 5,000 miles (more than 7,500 miles for agricultural uses). See
 Appendix V.
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways



Synopsis
The IRS is charged with administering the Heavy Vehicle Use Tax, which requires it to provide
proof of payment to taxpayers so they can register and operate their vehicles. The Heavy
Vehicle Use Tax is reported to the IRS on Form 2290. After a taxpayer files Form 2290 and
pays the tax, the IRS stamps the Schedule of Heavy Highway Vehicles (Schedule 1)2 of
Form 2290 to show payment was received and returns it to the taxpayer for use as proof of
payment for vehicle registration.
The IRS offers the following assistance options for
taxpayers who need to file Form 2290: online at
IRS.gov (the IRS public web site), at local offices               The Heavy Vehicle Use Tax places
called Taxpayer Assistance Centers,3 and via                        much burden on the trucking
toll-free telephone assistance. The IRS also                           community. Processing
                                                                  improvements should reduce the
provides a dedicated call site to handle excise tax             burden associated with filing, paying,
inquiries. However, improved cooperation                        and registering vehicles subject to the
between Federal and State Government agencies is                                 Tax.
critical to administer the Heavy Vehicle Use Tax
needed to maintain the nation’s infrastructure.
During Calendar Year 1997, the IRS created the Alternate Proof of Payment Program. Although
guidelines for the Program authorize a State Department of Motor Vehicles to accept
Forms 2290 with related payments to register vehicles, the IRS has not regularly pursued
expansion of this Program. The IRS also needs to track participation and monitor State
                                            compliance with the Memorandum of Understanding
                                            guidelines.
      The Alternate Proof of Payment
     Program has existed for 10 years.       To improve the administration of the Program and
    However, only 11 States participate.     promote taxpayer service, more States should be
                                             encouraged to participate. Taxpayers in States not
                                             participating in the Alternate Proof of Payment
Program must submit their tax returns and payments to the IRS to receive the stamped
Schedules 1. The taxpayers then have to visit a Department of Motor Vehicle office with the
stamped Schedules 1 to register their vehicles. Better cooperation between the IRS and the
States should reduce this burden. In addition, the Alternate Proof of Payment Program can
reduce the risk of noncompliance (falsification of Schedule 1) as the tax return and associated
payment are provided at the time of registration.


2
 See Appendix V.
3
 These are IRS offices with employees who answer questions, provide assistance, and resolve account-related issues
for taxpayers face to face.
                                                                                                                2
                   Increasing Federal and State Cooperation and Promoting
               Electronic Filing Would Improve Administration of Taxes Used to
                                Maintain the Nation’s Highways


The IRS has developed a process that enables filers to electronically file (e-file) their
Forms 2290. As of December 9, 2007, the IRS had received 1,569 e-filed Forms 2290.
Although e-filing benefits both taxpayers and the IRS, costs and unfamiliarity with the e-filing
option may be limiting participation. Currently, the population of Form 2290 filers is
about 600,000. Discussions with IRS management indicated that most tax preparation software
companies find the population of filers too low to warrant their offering the option to e-file
Form 2290. The cost to taxpayers to e-file Forms 2290 ranges from approximately $40 for
one vehicle to $160 for multiple vehicles. Recently, a new company began offering e-filing for
$12.50 for an unlimited number of vehicles.

Recommendations
The Commissioner, Small Business/Self-Employed Division, should encourage more State
participation in the Alternate Proof of Payment Program, develop a process to identify States
participating, and ensure that agreement provisions are followed and promote the benefits of
e-filing to all Form 2290 filers to increase e-filing participation.

Response
IRS management agreed with all our recommendations. They stated that State participants in the
Alternative Proof of Payment Program can be identified on the Servicewide Employment Tax
Research System database by Governmental Liaison and Disclosure office analysts using
“Highway Use Tax Form 2290” as the search criterion. The Governmental Liaison and
Disclosure office will solicit additional State office participants and continue to assist State
offices in completing standardized Memoranda of Understanding to authorize their participation
in the Alternate Proof of Payment Program. IRS management will also verify compliance with
Memorandum of Understanding requirements.
The Chief, Excise Tax Operations, will issue news releases regarding the benefits of
e-filing to all Form 2290 filers; advise all State Departments of Motor Vehicles about how
taxpayers may participate in e-filing, the benefits of e-filing, and how to locate a provider for
e-filing; and provide information and outreach about the benefits of Form 2290 e-filing to the
various trucking industry associations. Management’s complete response to the draft report is
included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.



                                                                                                    3
                         Increasing Federal and State Cooperation and Promoting
                     Electronic Filing Would Improve Administration of Taxes Used to
                                      Maintain the Nation’s Highways




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Increased Federal and State Cooperation Would Improve
          Administration of the Heavy Highway Vehicle Use Tax .............................Page 5
                    Recommendation 1:........................................................Page 9

          Promoting the Benefits of Electronic Filing Could Increase Participation...Page 9
                    Recommendation 2:........................................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measure ................................................................Page 16
          Appendix V – Heavy Highway Vehicle Use Tax Return (Form 2290)........Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 21
                  Increasing Federal and State Cooperation and Promoting
              Electronic Filing Would Improve Administration of Taxes Used to
                               Maintain the Nation’s Highways




                               Abbreviations

e-file; e-filing        Electronically file; electronic filing
IRS                     Internal Revenue Service
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways




                                            Background

The Heavy Highway Vehicle Use Tax (also referred to as the Heavy Vehicle Use Tax) is a
Federal highway use tax paid annually on vehicles with a taxable gross weight of 55,000 or more
pounds, designed to carry a load over public
highways, and expected to be used more than
5,000 miles (more than 7,500 miles for
agricultural uses). The Heavy Vehicle Use Tax
is a prepaid tax collected by the Internal
Revenue Service (IRS). The maximum annual
tax amount is $550 per vehicle.1 Combined
with other Federal excise taxes, it is used to
provide funds to the States for highway
construction, maintenance, and repairs.
Proceeds from the Heavy Vehicle Use Tax
provide more than $1 billion annually in
Federal highway transit funds to the States.
Two Federal Government agencies are involved in the processing and verification of payment of
the Heavy Vehicle Use Tax payments.
•   The IRS is responsible for processing the tax returns and associated payments, assisting
    taxpayers with filing and payment requirements (by telephone and in person), and ensuring
    taxpayer compliance by conducting Heavy Vehicle Use Tax correspondence and field audits.
•   The Federal Highway Administration is responsible for ensuring that State Department of
    Motor Vehicle offices obtain proof of payment of the Heavy Vehicle Use Tax prior to
    registering a vehicle. It conducts periodic reviews of each State’s compliance and has
    authority to withhold highway funds in cases of noncompliance.
The law2 imposes an annual tax on the use of highway vehicles with a taxable gross weight of
55,000 or more pounds. For this purpose, the tax year is from July 1 to the following June 30.
For vehicles used in July, the tax is due on August 31. For vehicles first used in later months of
the tax year, the tax is prorated. Thus, for example, for a vehicle that is not used in July but is


1
  Certain vehicles are exempt from the Heavy Vehicle Use Tax, including vehicles used and operated by government
entities and qualified blood collector organizations. The Heavy Vehicle Use Tax ranges from $100 per truck
($75 for a logging truck) weighing at least 55,000 pounds to $550 per truck ($412.50 for a logging truck) weighing
75,000 or more pounds.
2
  Internal Revenue Code Section 4481 (2006).
                                                                                                          Page 1
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways


used in August, the tax is 11/12 of the full rate and the return is due September 30. The Heavy
Vehicle Use Tax is reported using the Heavy Highway Vehicle Use Tax Return (Form 2290).3
The law4 also requires a taxpayer5 to prove he or she has paid the Heavy Vehicle Use Tax to
register a taxable vehicle with a State Department of Motor Vehicles or to enter the United States
in a taxable vehicle registered in Canada or Mexico. Treasury Regulations6 require a State to
obtain a stamped Form 2290 Schedule of Heavy Highway Vehicles (Schedule 1)7 from the
taxpayer as proof of payment. The IRS stamps the Schedule 1 to show payment was received
and returns it to the taxpayer to use as proof of payment to register the vehicle.
For example:
    Company XYZ owns 10 trucks, each with a taxable gross weight in excess of 75,000 pounds.
    The Company expects these trucks to travel more than 5,000 miles on public highways
    during the upcoming year. The Company uses the trucks during July 2007. The Company
    mails a Form 2290 by August 31, 2007, to the IRS, as required. The Form 2290 lists the
    Vehicle Identification Numbers for 10 trucks and includes a payment of $5,500 ($550 per
    truck). The IRS processes the Form 2290 and payment and mails a stamped copy of
    Schedule 1 to the Company. Company XYZ takes the Schedule 1 to its State Department of
    Motor Vehicles office and provides it as proof of payment of the Heavy Vehicle Use Tax,
    which enables the Company to register the 10 vehicles.
    On March 1, 2008, Company XYZ purchases a new truck and uses it. This truck has a gross
    weight in excess of 75,000 pounds and will travel more than 5,000 miles on public highways
    before June 30. As required, before April 30, 2008, the Company mails a second Form 2990
    to the IRS. The Form 2290 lists the Vehicle Identification Number for the new truck and
    includes a payment of $183 (4/12 of the annual amount of tax). The IRS processes the
    Form 2290 and mails a stamped copy of Schedule 1 to the Company. Company XYZ takes
    the Schedule 1 to its State Department of Motor Vehicles office and provides it as proof of
    payment of the Heavy Vehicle Use Tax, which enables the Company to register its new
    vehicle.
Figure 1 provides Form 2290 filing statistics for the 2005 and 2006 Filing Seasons.8



3
  See Appendix V.
4
  Internal Revenue Code Sections 41.4481-1 (April 2005) and 41.6001-2 (March 2000).
5
  The tax is paid by the person in whose name the vehicle is registered in a State for highway use. If a vehicle is
registered both in the name of the owner and another person, then the vehicle is considered to be registered solely in
the name of the owner.
6
  Treasury Regulations Section 41.6001-2 (March 2000).
7
  See Appendix V.
8
  The filing season is when most taxpayers file their tax returns. For the 2007 Form 2290, the filing season was
deemed to be from July 1, 2006, to June 30, 2007, although most returns are filed during July and August.
                                                                                                              Page 2
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways


                              Figure 1: Form 2290 Volumes and Filers

                                                                                                     Total Tax
          Filing Season                 Forms 2290 Filed           Unique Taxpayers                (thousands)
               2005                          721,500                     553,976                    $1,041,000
               2006                          785,156                     589,339                    $1,082,000
                                                                                          9
Source: Treasury Inspector General for Tax Administration analysis of IRS Master File Form 2290 data.

Taxpayers have a number of options available for filing Forms 2290 and paying taxes due,
including:
•    Mailing the Forms and associated payments directly to the IRS Cincinnati Tax Processing
     Center located in Covington, Kentucky.
•    Submitting the Forms and associated payments at any of the 401 IRS Taxpayer Assistance
     Centers10 located nationwide. The Taxpayer Assistance Centers mail the Forms 2290 and
     associated payments to the Cincinnati Tax Processing Center. If full payment is made with
     the tax return, the Taxpayer Assistance Center will provide the taxpayer with a stamped
     copy of the Schedule 1.
•    Submitting the Forms and associated payments at any Department of Motor Vehicles office
     located in the 11 States participating in the Alternate Proof of Payment Program. This
     Program allows States to register a vehicle for a taxpayer who presents a Form 2290 with
     full payment at the time of registration. The Department of Motor Vehicles office then
     mails the Forms and payments to the Cincinnati Tax Processing Center.
•    Mailing the Forms and full payments to a lockbox11 bank located in
     Charlotte, North Carolina. The lockbox site mails the Forms with a record of payments
     to the Cincinnati Tax Processing Center.
•    Transmitting the Forms and associated payments electronically. In October 2004, Congress
     required taxpayers reporting 25 or more vehicles to electronically file (e-file) Forms 2290.12
     Although this requirement was effective during 2004, e-filing was not available to taxpayers
     until July 2007.




9
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
10
   These are IRS offices with employees who answer questions, provide assistance, and resolve account-related
issues for taxpayers face to face.
11
   A lockbox is a collection and processing service, provided by a network of financial institutions, that accelerates
the flow of funds to the United States Treasury. Only a Form 2290 with full payment can be mailed to the lockbox.
12
   American Jobs Creation Act of 2004, Pub. L. No. 108-357, 118 Stat 1418.
                                                                                                               Page 3
                   Increasing Federal and State Cooperation and Promoting
               Electronic Filing Would Improve Administration of Taxes Used to
                                Maintain the Nation’s Highways


The Excise Tax Program office (in the Specialty Programs function within the Small
Business/Self-Employed Division) is responsible for taxpayer service and compliance activities
related to excise taxes, which include the Heavy Vehicle Use Tax. The Governmental Liaison
and Disclosure office (in the Communications, Liaison, and Disclosure function within the Small
Business/Self-Employed Division) is responsible for developing and maintaining relationships
with State and local governments.
This review was performed at the Centralized Excise Operations function in
Covington, Kentucky; the Specialty Programs function and the Communications, Liaison, and
Disclosure function in the Small Business/Self-Employed Division, in Washington, D.C.; the
IRS Lockbox Operations function in Charlotte, North Carolina; and a Taxpayer Assistance
Center in the Wage and Investment Division in Atlanta, Georgia, during the period June through
December 2007. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 4
                   Increasing Federal and State Cooperation and Promoting
               Electronic Filing Would Improve Administration of Taxes Used to
                                Maintain the Nation’s Highways




                                Results of Review

Increased Federal and State Cooperation Would Improve
Administration of the Heavy Highway Vehicle Use Tax
The IRS is charged with administering the Heavy Vehicle Use Tax, which requires it to provide
proof of payment to taxpayers so they can register and operate their vehicles. This tax places
considerable burden on those that must pay it.
Taxpayers residing in States that do not participate     Most taxpayers with these types of
in the Alternate Proof of Payment Program must          vehicles must submit Forms 2290 to
send their Forms 2290 and payments to the IRS,          the IRS and obtain proof of payment
wait to receive stamped Schedules 1, then go to a      before they can register their vehicles.
Department of Motor Vehicles office to register
their vehicles. A Taxpayer Assistance Center will
provide a taxpayer with a stamped Schedule 1 immediately after the taxpayer provides
Form 2290 and full payment, but the taxpayer must still go a Department of Motor Vehicles
office.
Better cooperation between the IRS and the States could reduce this burden. Improving the
system could also reduce fraud and expedite the receipt of funds.

The IRS recognizes the unique challenges and complexity related to the Heavy
Vehicle Use Tax and offers a number of assistance options for taxpayers
Taxpayers are provided assistance online at IRS.gov (the IRS public web site), at Taxpayer
Assistance Centers, and via toll-free telephone assistance. The IRS also provides a dedicated
call site to handle excise tax inquiries. In Fiscal Year 2007, IRS employees answered
90,946 Form 2290 tax telephone calls.
In Fiscal Year 2006, Taxpayer Assistance Center employees assisted 128,531 taxpayers in
preparing a Form 2290 and assisted another 232,806 taxpayers with questions about the Heavy
Vehicle Use Tax. The IRS also offers taxpayers the option to e-file their Forms 2290. To further
assist taxpayers, the IRS can expedite the processing of Schedule 1. Taxpayers who are in
jeopardy of not registering their vehicles on time can request that the IRS fax the stamped
Schedules 1 to them.




                                                                                          Page 5
                        Increasing Federal and State Cooperation and Promoting
                    Electronic Filing Would Improve Administration of Taxes Used to
                                     Maintain the Nation’s Highways


The IRS also conducts correspondence audits13 to identify taxpayers who are not compliant with
Form 2290 filing and payment requirements. Prior to Fiscal Year 2008, the process to identify
these taxpayers had been based on extensive data analyses, which included analyzing Form 2290
tax records and at times requesting files from State Departments of Motor Vehicles to match to
IRS files. For Fiscal Year 2008, the IRS plans to move away from the data analysis and use a
process called “classification,” which involves an IRS employee’s review of tax returns to
identify potentially auditable issues. The IRS plans to conduct 2,300 excise tax audits in Fiscal
Year 2008. Approximately 1,200 of these audits will include Forms 2290.
Figure 2 provides the volumes of excise tax correspondence audits, along with specific volumes
and percentages of Form 2290 audits. The numbers of Form 2290 audits have been decreasing
as the IRS has been shifting into other excise tax work (e.g., fuel tax credit).
                            Figure 2: Form 2290 Correspondence Audits
                                    for Fiscal Years 2005 – 2007

                                          Total Excise Tax              Form 229014        Percentage of
              Fiscal Year              Correspondence Audits              Audits          Form 2290 Audits

                 2005                             4,264                     4,264                100%
                 2006                             3,045                     3,025                 99%
                 2007                             3,025                     1,427                 47%

     Source: Centralized Excise Operations Planning and Analysis function staff.

The IRS should solicit State participation in the Alternate Proof of Payment
Program
The Alternate Proof of Payment Program provides Form 2290 filers with one-stop service by
providing the ability to file Form 2290 and pay the Heavy Vehicle Use Tax simultaneously when
registering a vehicle, which reduces taxpayer burden. During Calendar Year 1997, the IRS
created the Alternate Proof of Payment Program. Although guidelines authorize a State’s
Department of Motor Vehicles to accept Form 2290 and related payments from taxpayers to
register their vehicles, the IRS has not regularly pursued expansion of this Program.
The Alternate Proof of Payment Program has existed for 10 years, but currently only 11 States
participate. IRS management advised us that States were solicited when the Program was first

13
   Correspondence audits are important compliance activities focusing on errors and examination issues that
typically can be corrected by mail. They are conducted by sending the taxpayer a letter requesting verification of
certain items on the tax return. These audits are much more limited in scope than office and field examinations in
which examiners meet face to face with taxpayers to verify information.
14
   Form 2290 audits have been reduced from Fiscal Year 2005 to 2007 because the IRS is now working other types
of excise tax case work, including audits of taxpayers claiming the Fuel Tax Credit.
                                                                                                            Page 6
                        Increasing Federal and State Cooperation and Promoting
                    Electronic Filing Would Improve Administration of Taxes Used to
                                     Maintain the Nation’s Highways


initiated. Liaisons responsible for the Program stated that management has not recently
instructed them to promote the Program. Figure 3 provides a list of the 11 States that currently
participate in the Program.
                                  Figure 3: States Participating in the
                                  Alternate Proof of Payment Program
                                             Year(s)                                     Year(s)
                                           Agreements                                  Agreements
                          State              Signed                 State                Signed
                Idaho                          1997         Nebraska                    2002, 200615
                Indiana                        1998         Arkansas                        2004
                Connecticut                    1999         Delaware                        2005
                North Carolina                 1999         Texas                           2005
                Vermont                        2000         South Carolina                  2006
                Washington                     2001
              Source: Governmental Liaison and Disclosure office.

Representatives from four participating States advised us they believe the Program requires
minimal resources. One State representative noted that the Program expedites the registration
process and makes it easier for taxpayers in that State to register their vehicles.
To improve administration of the Program, the IRS should encourage other States to participate,
develop a process to track participation, and monitor State compliance with guidelines. When
asked for a list of States participating in the Program, the Governmental Liaison and Disclosure
office could not identify all States with signed agreements but eventually determined that
11 States are currently participating in the Program.
The Memoranda of Understanding signed between the IRS and participating States detail
specific requirements the States must follow. For example, guidelines require the States to
transmit Forms 2290 and payments daily. However, limited testing showed that States were not
mailing the Forms and payments on time–late mailings ranged from 7 calendar days to
218 calendar days after the Departments of Motor Vehicles had received the Forms 2290.
Currently, there is no IRS function responsible for monitoring and/or ensuring compliance with
the Memoranda of Understanding.
Management has raised concerns that limited resources affect their ability to solicit participation
and/or monitor State compliance. However, liaisons are already in place to coordinate with the
States to solicit participation, and the Standards for Internal Control in the Federal Government



15
     Two counties and the State Department of Motor Vehicle joined at different times during 2002 and 2006.
                                                                                                              Page 7
                        Increasing Federal and State Cooperation and Promoting
                    Electronic Filing Would Improve Administration of Taxes Used to
                                     Maintain the Nation’s Highways


requires internal controls to be designed to assure that ongoing monitoring occurs in the course
of normal operations. It is to be performed continually and ingrained in the agency’s operations.
During the 2006 Filing Season, 571,936 filers resided in States that do not participate in the
Alternate Proof of Payment Program. These taxpayers will be required to wait until they have
stamped Schedules 1 before registering their vehicles.

The IRS does not have data to measure Form 2290 filing and/or payment
compliance
The current process for filing Form 2290 creates the risk that taxpayers can circumvent paying
the Heavy Vehicle Use Tax by submitting fraudulent Forms 2290 as proof of payment. The IRS
currently has data identifying filers who manipulated Forms 2290. However, to determine the
significance of this activity would require the IRS to obtain State Departments of Motor Vehicle
data files of vehicles registered by taxpayers and subject to the Heavy Vehicle Use Tax. The IRS
noted that efforts have not been undertaken to regularly obtain data files from the States and
compare them to its files. Files are obtained on an as-needed basis. During the previous
4 calendar years (2004 to 2007), the IRS has obtained files from at least 8 States.
IRS officials indicated that extensive resources would be needed to establish a process to
regularly obtain State files. In addition, there are both legal and technical issues affecting its
ability to obtain State files of registered vehicles, including a lack of legal authority to compel
the States to provide registration information to the IRS. Each State has its own system of
capturing registration information, and there is little consistency in file formats. For example,
some States do not capture the taxpayers’ Employee Identification Numbers. Without the
Employee Identification Number, matching State and IRS files would require extensive
resources.
Technical issues include inconsistent data file structures, and some States want to charge the IRS
for the files and/or information. Although the IRS notes several barriers that affect its ability to
efficiently obtain State files, no documentation was available to support these positions. Federal
Highway Administration guidelines16 require periodic review of States’ procedures for
complying with documentation requirements, including inspecting documentation and records.
The States are to retain a copy of the receipted Schedule 1 or an acceptable substitute, such as an
automated record or microfilm, for a period of 1 year for purposes of evaluating State
compliance. Representatives from the Federal Highway Administration indicated that the State
reviews are performed on a 3-year cycle.
During a Federal Highway Administration review of one State’s Department of Motor Vehicle
offices, the Federal Highway Administration identified taxpayers who registered their vehicles
using fraudulently stamped Schedules 1. To date, the Federal Highway Administration, in


16
     23 C.F.R. 669.21 - Procedure for evaluating State compliance.
                                                                                               Page 8
                   Increasing Federal and State Cooperation and Promoting
               Electronic Filing Would Improve Administration of Taxes Used to
                                Maintain the Nation’s Highways


coordination with the IRS Criminal Investigation Division, has identified about 2,700 taxpayers
who photocopied legitimately stamped Form 2290 Schedules 1 and changed the Vehicle
Identification Numbers and taxpayer information to register different vehicles to circumvent
paying the Tax. State data files could be used to identify taxpayers who registered vehicles but
have not filed a Form 2290 and/or paid the Heavy Vehicle Use Tax.
The IRS has limited funding available to address Form 2290 compliance issues. The amount of
revenue collected via the Heavy Vehicle Use Tax is considerably less than that from other taxes
it collects—both per tax return and for the Program as a whole. Management has indicated that
extensive resources would be needed to establish a process to obtain State data files and perform
matches to IRS files to identify compliance problems. Although they were unable to provide any
specific data, they do not believe it would be cost effective to pursue compliance issues in this
manner.
The IRS stated it will continue to assess the cost/benefit of compliance initiatives when deciding
where to focus its limited resources. In doing so, the IRS should consider that providing the
ability to file Form 2290 and pay the Heavy Vehicle Use Tax simultaneously when registering a
vehicle reduces both taxpayer burden and the risk of noncompliance (falsification of Schedule 1),
as the tax return and associated payment are provided at the time of registration.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
encourage more State participation in the Alternate Proof of Payment Program, develop a
process to identify States participating in the Program, and ensure that agreement provisions are
followed.
       Management’s Response: IRS management agreed with this recommendation.
       They stated that State participants in the Alternative Proof of Payment Program can be
       identified on the Servicewide Employment Tax Research System database by
       Governmental Liaison and Disclosure office analysts using “Highway Use Tax
       Form 2290” as the search criterion. The Governmental Liaison and Disclosure office will
       solicit additional State office participants and continue to assist State offices in
       completing standardized Memoranda of Understanding to authorize their participation in
       the Alternate Proof of Payment Program. IRS management will also verify compliance
       with Memorandum of Understanding requirements.

Promoting the Benefits of Electronic Filing Could Increase
Participation
The IRS has developed a process that enables Form 2290 filers to e-file their tax returns. As of
December 9, 2007, the IRS had received 1,569 e-filed tax returns. Although e-filing benefits

                                                                                           Page 9
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways


both taxpayers and the IRS, costs and unfamiliarity with this option may be limiting
participation.
Currently, the population of Form 2290 filers is about 600,000. Discussions with IRS
management indicated that most tax preparation software companies find the population of filers
too low to warrant their offering the option to e-file Form 2290. The cost to taxpayers to e-file
Form 2290 ranges from approximately $40 for one vehicle to $160 for multiple vehicles.
Recently, a new company began offering e-filing for $12.50 for an unlimited number of vehicles.
Current law requires e-filing for companies with 25 or more vehicles. However, nearly one-half
of all filers have only one vehicle. Figure 4 shows that only 5 percent of Forms 2290 report
25 or more vehicles.
                  Figure 4: Stratification of Vehicles Listed on Form 2290
                                      (Fiscal Year 2006)
                        Vehicles                      Tax Returns                  Percentage
                            1                            300,260                       48%
                           2-5                           238,787                       38%
                           6-10                          34,365                         5%
                          11-24                          28,361                         4%
                           25+                           29,208                         5%
                          Total                          630,981                      100%
           Source: Treasury Inspector General for Tax Administration analysis of IRS Master File
           Form 2290 data.

Because the option to e-file is new, filers may be unaware of the option and its benefits.
Increased promotion of the benefits of e-filing, particularly to the majority of one-vehicle filers,
could increase participation, which provides the following benefits to both taxpayers and the
IRS:
•    Annual savings of approximately $1.5 million to process paper Forms 2290.17
•    A validation process for e-filed tax returns that can identify filing mistakes prior to IRS
     receipt of the Forms 2290, allowing taxpayers to address the errors before processing.
•    Immediate receipt of a watermarked18 Schedule 1 showing proof of payment upon
     acceptance of the e-filed tax return.



17
   Calculation is based on the cost to process a paper-filed Form 2290 ($1.90) multiplied by the 785,156 Forms
processed in Fiscal Year 2006 (total $1,491,796).
18
   Paper that has a transparent design or mark that can be seen when the paper is held up to the light.
                                                                                                          Page 10
                   Increasing Federal and State Cooperation and Promoting
               Electronic Filing Would Improve Administration of Taxes Used to
                                Maintain the Nation’s Highways


•   The ability of State Departments of Motor Vehicles to electronically search IRS databases to
    confirm compliance with filing and payment requirements prior to registering vehicles. For
    over a decade, the IRS has been meeting with interested organizations such as the American
    Association of Motor Vehicle Administrators to discuss automating the filing and
    subsequent verification of the Heavy Vehicle Use Tax payment.

Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
promote the benefits of e-filing to all Form 2290 filers to increase e-filing participation.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief, Excise Tax Operations, will issue news releases regarding the benefits of e-filing
       to all Form 2290 filers; advise all State Departments of Motor Vehicles about how
       taxpayers may participate in e-filing, the benefits of e-filing, and how to locate a provider
       for e-filing; and provide information and outreach about the benefits of Form 2290
       e-filing to the various trucking industry associations such as the American Trucking
       Association, Americas Independent Truckers Association, and the American Association
       of Motor Vehicle Administrators.




                                                                                            Page 11
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways


                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the efficiency and effectiveness of the IRS
processing of the Heavy Highway Vehicle Use Tax Return (Form 2290). To accomplish this
objective, we:
I.       Identified and documented functional areas and associated processes and procedures
         involved in the prefiling, filing, and postfiling activities related to Form 2290.
         A. Researched information available to assist taxpayers in meeting their filing and
            payment responsibilities.
         B. Performed a walkthrough of the various functional areas at the Cincinnati Tax
            Processing Center in Covington, Kentucky, responsible for filing and postfiling
            activities related to Form 2290.
         C. Observed Form 2290 processing at an IRS Taxpayer Assistance Center in
            Atlanta, Georgia, and interviewed personnel involved. We chose this Center because
            it was near the lead auditor’s location.
         D. Interviewed analysts responsible for lockbox operations.1
         E. Interviewed analysts responsible for the IRS partnership with State Departments of
            Motor Vehicles.
II.      Identified problems with the processing of Form 2290.
         A. Held discussions with management and analysts in those functional areas responsible
            for filing and compliance.
         B. Evaluated operational reviews to identify problems and associated corrective actions
            relating to the processing of Form 2290.
         C. Analyzed Tax Years 2005 and 2006 Form 2290 return information to identify
            potential problems associated with filed Forms 2290.
         D. Reviewed the design of Form 2290 and related instructions to identify areas that may
            result in taxpayer errors in completing the Form.



1
  A lockbox is a collection and processing service, provided by a network of financial institutions, that accelerates
the flow of funds to the United States Treasury. Only a Form 2290 with full payment can be mailed to the lockbox.
                                                                                                            Page 12
                   Increasing Federal and State Cooperation and Promoting
               Electronic Filing Would Improve Administration of Taxes Used to
                                Maintain the Nation’s Highways


       E. Determined the causes and actions that can be taken to reduce any problems
          identified. We attempted to quantify the potential impact on both taxpayers and the
          IRS.
III.   Assessed IRS efforts to ensure taxpayer compliance with Form 2290 filing and payment
       requirements.
       A. Held discussions with responsible compliance management and analysts.
       B. Interviewed representatives from the Department of Transportation Federal Highway
          Administration and the Inspector General Office about compliance initiatives to
          ensure that the States are confirming that excise taxes are paid prior to registering
          vehicles.
       C. Identified data sources that may be available to assist the IRS in identifying
          noncompliant taxpayers.
       D. Analyzed Tax Years 2005 and 2006 Form 2290 return information to identify trends
          in compliance activities.
       E. Assessed the IRS’ efforts to implement an electronic program to enable States to
          determine if taxpayers have paid the tax prior to registering vehicles.
       F. Determined if improvements can be made in the IRS’ efforts to ensure taxpayer
          compliance with Form 2290 filing and payment requirements, and attempted to
          quantify the impact on taxpayers and the IRS.
IV.    Assessed the IRS’ efforts to reduce taxpayer burden relating to filing Form 2290.
       A. Determined if the processing time period creates taxpayer burden.
       B. Analyzed the progress of the IRS’ plans for e-filing and payment of Form 2290.
       C. Assessed the efficiency with which the toll-free telephone program routes incoming
          calls from taxpayers.
       D. Assessed the IRS’ efforts to expand State Departments of Motor Vehicles
          participation in the Form 2290 Alternate Proof of Payment Program.
       E. Attempted to quantify the impact of any suggested improvements on taxpayers and
          the IRS.




                                                                                           Page 13
              Increasing Federal and State Cooperation and Promoting
          Electronic Filing Would Improve Administration of Taxes Used to
                           Maintain the Nation’s Highways


                                                                        Appendix II

             Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Tracy Harper, Lead Auditor
Mary Keyes, Auditor
Geraldine Vaughn, Auditor
Joseph Butler, Information Technology Specialist




                                                                               Page 14
                  Increasing Federal and State Cooperation and Promoting
              Electronic Filing Would Improve Administration of Taxes Used to
                               Maintain the Nation’s Highways


                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Director, Strategy and Finance, Small Business/Self-Employed Division SE:S:SF
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
       Division SE:S:CLD
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 15
                      Increasing Federal and State Cooperation and Promoting
                  Electronic Filing Would Improve Administration of Taxes Used to
                                   Maintain the Nation’s Highways


                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 571,936 taxpayer accounts affected (see page 5).

Methodology Used to Measure the Reported Benefit:
The Alternate Proof of Payment Program enables Heavy Highway Vehicle Use Tax Return
(Form 2290) filers to both file and pay this tax at the time they register their vehicles. Taxpayers
currently filing Forms 2290 in the 39 States that do not participate in the Program are not
afforded the convenience of the one-stop service option for simultaneously filing and paying the
Heavy Highway Vehicle Use Tax and registering the vehicle. Expanding the Program to all
States would reduce the burden of taxpayers having to file Forms 2290 and register their vehicles
separately.
We obtained the number of Form 2290 filers in States that do not participate in the Alternate
Proof of Payment Program. We selected State codes1 for all Form 2290 filers from IRS Master
File2 data for Fiscal Year 2006 and totaled the number of filers in all States (742,057). We then
subtracted the total number of Form 2290 filers in the 11 States that participate in the Alternate
Proof of Payment Program (170,121). This identified 571,936 filers who reside in States that do
not participate.




1
  These include codes for United States possessions, such as “PR” for Puerto Rico.
2
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                           Page 16
           Increasing Federal and State Cooperation and Promoting
       Electronic Filing Would Improve Administration of Taxes Used to
                        Maintain the Nation’s Highways


                                                          Appendix V

Heavy Highway Vehicle Use Tax Return (Form 2290)




                                                                Page 17
    Increasing Federal and State Cooperation and Promoting
Electronic Filing Would Improve Administration of Taxes Used to
                 Maintain the Nation’s Highways




                                                         Page 18
    Increasing Federal and State Cooperation and Promoting
Electronic Filing Would Improve Administration of Taxes Used to
                 Maintain the Nation’s Highways




                                                         Page 19
    Increasing Federal and State Cooperation and Promoting
Electronic Filing Would Improve Administration of Taxes Used to
                 Maintain the Nation’s Highways




                                                         Page 20
       Increasing Federal and State Cooperation and Promoting
   Electronic Filing Would Improve Administration of Taxes Used to
                    Maintain the Nation’s Highways


                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 21
    Increasing Federal and State Cooperation and Promoting
Electronic Filing Would Improve Administration of Taxes Used to
                 Maintain the Nation’s Highways




                                                         Page 22
    Increasing Federal and State Cooperation and Promoting
Electronic Filing Would Improve Administration of Taxes Used to
                 Maintain the Nation’s Highways




                                                         Page 23
